      _." Sl"VlC..,.


l
    ......         {;-t,
        4~ DEPARTMENT OF HEALTH & HUMAN SERVICES                                                     Office of Inspector General
;\ ,,+ JJt:

       'l~~la
                                                                                                     Office of A udit Services
                                                                                                     Jacob Javits Federal Building
                           June 24, 2010                                                             26 Federal Plaza, Room 3900
                                                                                                     New York, NY 10278


                           Report Number: A-02-08-0l026

                           Mr. Carlos L. Gonzalez, C.P.A., C.M.A.
                           Chief Financial Officer
                           Cooperativa de Seguros de Vida de Puerto Rico
                           400 Avenida Americo Miranda
                           Esq. Expreso Las Americas
                           Rio Piedras, PR 00926

                           Dear Mr. Gonzalez:

                           Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
                           General (OIG), final report entitled Audit ofCooper ativa de Seguros de Vida de Puerto Rico's
                           Final Administrative Cost Proposalfor Fiscal Years 2005 through 2007. We will forward a
                           copy of this report to the HHS action official noted on the following page for review and any
                           action deemed necessary.

                           The HHS action official will make final determination as to actions taken on all matters reported.
                           We request that you respond to this official within 30 days from the date of this letter. Your
                           response should present any comments or additional information that you believe may have a
                           bearing on the final determination.

                           Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
                           available reports on the OIG Web site. Accordingly, this report will be posted at
                           http://oig. hhs. gov .

                           If you have any questions or comments about this report, please do not hesitate to call me, or
                           contact Richard Schlitt, Audit Manager, at (212) 264-48l7 or through email at
                           Richard.Schlit1@oi g.hhs.gov. Please refer to report number A-02-08-0l026 in all
                           correspondence.

                                                                        Sincerely,



                                                                        Ijames P. Edertl
                                                                        Regional Inspector General
                                                                         for Audit Services


                           Enclosure
Page 2 - Mr. Carlos L. Gonzalez, C.P.A., C.M.A.


Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
  Department of Health & Human Services
             OFFICE OF 

        INSPECTOR GENERAL 





    AUDIT OF COOPERATIVA DE 

SEGUROS DE VIDA DE PUERTO RICO'S 

   FINAL ADMINISTRATIVE COST 

 PROPOSAL FOR FISCAL YEARS 2005 

         THROUGH 2007 





                        Daniel R. Levinson 

                         Inspector General 


                            June 2010 

                          A-02-0S-01026 

                        Office ofInspector General
                                          http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs andlor its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments ofHHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations

The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations offraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, 01 utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of 01
often lead to criminal convictions, administrative sanctions, andlor civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program gnidance, publishes fraud alerts, and provides
other gnidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oiq.hhs.qov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND 


Title XVIII of the Social Security Act established the Medicare Program. The Centers for
Medicare and Medicaid Services (CMS) administers the Medicare program through contractors,
including Part A fiscal intermediaries that process and pay Medicare claims. Contracts between
CMS and the Medicare contractors define the functions to be performed and provide for the
reimbursement of allowable administrative costs incurred in the processing of Medicare claims.

CMS contracts provide for the reimbursement of allowable administrative costs incurred in
processing Medicare claims. In claiming costs, contractors must follow cost reimbursement
principles contained in the Federal Acquisition Regulation (FAR) and the Medicare contracts.
Following the close of each fiscal year (FY), contractors submit to CMS a Final Administrative
Cost Proposal (cost proposal), which reports the Medicare administrative costs incurred during
the year. The cost proposal and supporting data provide the basis for the CMS contracting
officer and contractor to negotiate a final settlement of allowable administrative costs.

For FYs 2005 through 2007, CMS contracted with Cooperativa de Seguros de Vida de Puerto
Rico (COSVI) to serve as the Part A fiscal intermediary for the Commonwealth of Puerto Rico
and the United States Virgin Islands. COSVI reported Medicare Part A administrative costs
totaling $10,327,220 in its cost proposals for FYs 2005 through 2007.

OBJECTIVES

Our objectives were to determine whether (1) the COSVI cost proposals fairly presented
program administration costs and (2) the costs were reasonable, allowable, and allocable in
accordance with the FAR and the Medicare contracts.

SUMMARY OF FINDINGS

COSVI reported expenditures in its cost proposals that substantially complied with the FAR and
the Medicare contracts. However, COSVI overstated its FYs 2005 through 2007 cost proposals
by $61,533. Specifically, COSVI reported unsupported, unallocable, and overstated costs to the
Medicare program totaling $64,292 - (1) unsupported subcontract and salary costs ($17,608);
(2) unallocable entertainment and executive compensation costs ($24,478), and (3) overstated
travel costs, depreciation, indirect expenses, return on investment, and subcontract costs
($22,206). In addition, COSVI understated salary costs by $2,759.

RECOMMENDATION

We recommend that COSVI decrease its costs proposals by $61,533 ($12,291 for FY 2005,
$34,868 for FY 2006, and $14,374 for FY 2007) to reflect the unallowable administrative costs.
COOPERATIVA DE SEGUROS DE VIDA DE PUERTO RICO COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, COS VI partially agreed with our recommendation to
decrease its cost proposals. COSVI indicated that it agreed to adjust its cost proposals for
unsupported subcontract and salary costs; unallocable executive compensation; overstated travel,
depreciation, indirect costs, and return on investment; and understated salary costs. However,
COSVI did not agree to adjust its cost proposals for unallocable entertainment costs and
overstated subcontract costs. COS VI's comments appear in their entirety as Appendix D.

After reviewing COS VI' s comments, we continue to recommend that COS VI decrease its cost
proposals by $61,533 to reflect the unallowable administrative costs.




                                               11
                                                    T ABLE OF CONTENTS 




INTRODUCTION................................................................................................................ 1 


          BACKGROUND ....................................................................................................... 1 


          OBJECTIVES, SCOPE, AND METHODOLOGy ........ ............ ... ......... ... ................ 1 

               Objectives ...................................................................................................... 1 

               Scope ................... ........................ ........................ ........................ ................... 1 

               Methodology ..................................................................................................2 


FINDINGS AND RECOMMENDATION ........................................................................ .3 


          UNSUPPORTED COSTS ..................... ........................ ........................ .................. .3 

               Subcontracts and Salaries ............................................................................. .3 


          UNALLOCABLE COSTS ....................................................................................... .3 

              Entertainment .............................. ........................ ........................ .................. .3 

              Executive Compensation ............ ........................ ........................ .................. .4 


          OVERSTATED COSTS ............. ... ......... ... ......... ... ......... ... ......... ... ......... ... ............... .4 

               Travel ............................................................................................................ .4 

               Depreciation ................................ ........................ ........................ ................... 5 

               Indirect Cost Rate .......................................................................................... 5 

               Return on Investment ..................................................................................... 5 

               Subcontract Costs .................................... ... ......... ... ......... ... ......... ... ................6 


          UNDERSTATED SALARY COSTS ............................. ........................ ................... 6 


          RECOMMENDATION .............................................................................................6 


          COOPERATIVA DE SEGUROS DE VIDA DE PUERTO RICO COMMENTS 

           AND OFFICE OF INSPECTOR GENERAL RESPONSE.....................................6 





                                                                      111
APPENDIXES 


     A - COSTS REPORTED ON FINAL ADMINISTRATIVE COST PROPOSAL BY
          COST CLASSIFICATION

     B - OFFICE OF INSPECTOR GENERAL RECOMMENDED COSTS
          ADJUSTMENTS

     C - COMPARISON OF ADMINISTRATIVE COSTS REPORTED TO BUDGET
          AUTHORIZATION

     D - COOPERATIVA DE SEGUROS DE VIDA DE PUERTO RICO COMMENTS




                                 IV
                                      INTRODUCTION 


BACKGROUND

Title XVIII of the Social Security Act established the Medicare Program. The Centers for
Medicare & Medicaid Services (CMS) administers the Medicare program through contractors,
including Part A fiscal intermediaries that process and pay Medicare claims. Contracts between
CMS and the Medicare contractors define the functions to be performed and provide for the
reimbursement of allowable administrative costs incurred in the processing of Medicare claims.

CMS contracts provide for the reimbursement of allowable administrative costs incurred in
processing Medicare claims. In claiming costs, contractors must follow cost reimbursement
principles contained in the Federal Acquisition Regulation (FAR) and the Medicare contracts.
Following the close of each fiscal year (FY), contractors submit to CMS a Final Administrative
Cost Proposal (cost proposal), which reports the Medicare administrative costs incurred during
the year. The cost proposal and supporting data provide the basis for the CMS contracting
officer and contractor to negotiate a final settlement of allowable administrative costs.

During our audit period (FYs 2005 through 2007), CMS contracted with Cooperativa de Seguros
de Vida de Puerto Rico (COSVI) to serve as the Part A fiscal intermediary for the
Commonwealth of Puerto Rico and the United States Virgin Islands. COSVI reported Medicare
Part A administrative costs totaling $10,327,220 in its cost proposals for FYs 2005 through 2007.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether (1) the COSVI cost proposals fairly presented
program administration costs and (2) the costs were reasonable, allowable, and allocable in
accordance with the FAR and the Medicare contracts.

Scope

Our review covered the period October 1, 2004, through September 30,2007 (FYs 2005 through
2007). For this period, COSVI reported Medicare Part A administrative costs totaling
$10,327,220. This total included pension costs of $631,726 that we excluded from this review
because they will be the subject of a separate audit. COSVI did not report any forward-funding
costs in its cost proposals for this period. We reviewed those internal controls relevant to our
audit objectives.

We conducted our fieldwork at COSVI's offices in San Juan, Puerto Rico.




                                                1

Methodology

To accomplish our objectives, we

   • 	 reviewed applicable Medicare laws, regulations, and guidelines;

   • 	 reviewed the applicable sections of the FAR and eOSVI's contracts with eMS;

   • 	 reviewed COS VI's independent auditor's reports for calendar years 2004 through 2007
       and letters related to internal controls for eOSVI for calendar years 2006 and 2007;

   • 	 reviewed eOSVI's Medicare external audit reports for FYs 2003 through 2004;

   • 	 reconciled expenses on the cost proposals and cost classification reports to COS VI's
       accounting records;

   • 	 tested costs for reasonableness, allowability, and allocability;

   • 	 selected and reviewed a judgmental sample of journal entries, invoices, expense vouchers
       and reports, contracts and agreements, and additional supporting documentation;

   • 	 interviewed eOSVI officials regarding their costs accumulation processes for cost
       proposals and cost allocation systems;

   • 	 reviewed payroll journals, corporate bonus plans, and personnel records; and

   • 	 selected ajudgmental sample of 19 individual employees and verified that the amount
       paid to each employee was in accordance with the employee's pay rate, the employee's
       salary was charged to the correct cost center, and the number of hours paid to the
       employee agreed with the employee's earning statements.

In addition, for each of the five highest paid eOSVI executives who had salaries allocated to
Medicare, we:

   • 	 reviewed total compensation payout data and supporting documentation for FY s 2005
       through 2007;

   • 	 compared executive compensation costs to benchmark amounts published in the Federal
       Register for FY s 2005 through 2007; and

   • 	 applied the Medicare allocation percentage to each executive's total compensation, up to
       the benchmark amount, to determine the allowable executive compensation amount.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


                                                  2

based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

COSVI reported expenditures in its cost proposals that substantially complied with the FAR and
the Medicare contracts. However, COSVI overstated its FYs 2005 through 2007 cost proposals
by $61,533. Specifically, COSVI reported unsupported, unallocable, and overstated costs to the
Medicare program totaling $64,292 - (1) unsupported subcontract and salary costs ($17,608);
(2) unallocable entertainment and executive compensation costs ($24,478), and (3) overstated
travel costs, depreciation, indirect expenses, return on investment, and subcontract costs
($22,206). In addition, COSVI understated salary costs by $2,759.

UNSUPPORTED COSTS

Subcontracts and Salaries

COSVI reported unsupported subcontract and salary costs totaling $17,608 in its FYs 2006 and
2007 cost proposals.

Pursuant to FAR section 31.201-2(d), COSVI is responsible for " ... maintaining records,
including supporting documentation, adequate to demonstrate that costs claimed have been
incurred, are allocable to the contract, and comply with applicable cost principles."

COS VI did not maintain adequate records to support costs in its FYs 2006 and 2007 cost
proposals totaling $17,608. The unsupported costs were included in the following categories:

   •   $12,000 for subcontract costs in FY 2007 and

   •   $5,608 for salaries ($2,158 in FY 2006 and $3,450 in FY 2007).

UNALLOCABLE COSTS

COSVI reported unallocable entertainment and executive compensation costs totaling $24,478 in
its FYs 2005 through 2007 cost proposals.

Entertainment

Pursuant to section 31.205-14 of the FAR, " ... costs of amusement, diversions, social activities,
and any directly associated costs such as tickets to shows or sports events, meals, lodging,
rentals, transportation, and gratuities are unallowable." Further, pursuant to FAR 31.201-4, "a
cost is allocable if it is assignable or chargeable to one or more cost objectives on the basis of
relative benefits received or other equitable relationship."

COSVI improperly reported entertainment costs totaling $19,305 in its FYs 2005 through 2007
cost proposals ($8,402 in FY 2005, $7,908 in FY 2006, and $2,995 in FY 2007). Specifically,



                                                 3

COSVI reported unallowable costs related to company Christmas parties ($4,024 in FY 2005 and
$4,509 in FY 2006), as well as food and beverages served after the company's annual meeting
($4,378 in FY 2005, $3,399 in FY 2006, and $2,995 in FY 2007).

Executive Compensation

Pursuant to Appendix B, section XV of the Medicare contract, all direct and indirect costs related
to the contractor's non-Medicare business that do not contribute to the Medicare program are
unallowable. In addition, pursuant to FAR 3l.201-4, "a cost is allocable if it is assignable or
chargeable to one or more cost objectives on the basis of relative benefits received or other
equitable relationship."

COSVI improperly reported executive compensation costs totaling $5,173 in its FY 2005 cost
proposal. Specifically, COSVI claimed non-Medicare business related expenses paid to the
                                                             1
company's former vice president for Medicare during FY 2004.

OVERSTATED COSTS

COSVI overstated travel, depreciation, indirect costs, return on investment, and subcontract costs
totaling $22,206 in its FYs 2005 through 2007 cost proposals.

Travel

Pursuant to section 3l.205-46 of the FAR, costs incurred for lodging, meals, and incidental
expenses shall be considered to be reasonable and allowable only to the extent that they do not
exceed on a daily basis the maximum per diem rates in effect at the time of travel. The Federal
Travel Regulation (41 CFR Part 300-304) implements statutory requirements and Executive
branch policies for travel by Federal civilian employees and other authorized to travel at
government expense.

COSVI reported unallowable travel costs totaling $1,365. Specifically, COSVI reported:

    • 	 $44 for per diem reimbursement for travel that lasted less than 12 hours,

    • 	 $155 for lodging expenses above the per diem rate without CMS authorization and
        justification,

                                                                                       2
    • 	 $866 for business class airline tickets without CMS authorization, and




1These non-Medicare business related expenses were normally provided to members of COSVI's executive board
and reported as taxable income.

2We detennined the disallowance by calculating the difference between the business class ticket and the cost of a
coach class ticket for the same flight.




                                                          4

      • 	 $300 in excess per diem fees for not making a travel reservation prior to the date 

          indicated by CMS. 


Depreciation

Pursuant to Appendix B, section IV.A of the Medicare contract, a Medicare contractor must
depreciate all items of equipment with a useful life of more than one year. The cost of
equipment may not be charged off as an expense in the year of purchase.

Contrary to this contract clause, COS VI reported $31,112 in FY 2006 as depreciation for
equipment with a three-year life that cost $32,635. We calculated the depreciation expense for
this equipment as $10,878 for both FY 2006 and 2007, and $10,879 for FY 2008. Therefore,
COSVI overstated its depreciation expenses in FY 2006 by $21,757 and understated its FY 2007
depreciation expenses by $10,878. As a result, during our FYs 2005 through 2007 audit period,
COSVI overstated its depreciation expenses by $10,879. 3

Indirect Cost Rate

Pursuant to section 3l.203 of the FAR, the contractor shall accumulate indirect costs by logical
cost groupings. In addition, section II of the Medicare contract Appendix B requires consistency
in allocating costs for the same purpose.

COSVI overstated its indirect costs by $1,635 in its FY 2005 and FY 2006 cost proposals ($110
in FY 2005 and $1,525 in FY 2006). Specifically, COSVI utilized indirect cost rates higher than
its internally derived cost rates. 4 As a result, in FY 2005, COSVI overstated outside professional
services cost by $1l0. In addition, COSVI overstated its FY 2006 allocation of indirect costs by
$1,525.

Return on Investment

Pursuant to Appendix B, section X.A of the Medicare contract, the cost of investment will be
determined by multiplying the average undepreciated balance of such assets for the contract
period by the actual rate of return of the contractor's investment portfolio for the contract period,
or a lower rate if the contractor chooses.

COSVI overstated by $1,520 the return on investment in its FY 2006 cost proposal. COSVI used
an incorrect indirect cost rate to calculate the cost of investment allocation. As result, for FY
2006, COSVI claimed return on investment costs totaling $22,670 instead of$21,150.




3   COSVI may apply this amount to its FY 2008 cost proposal.

4 In FY 2005, COSVI used an indirect cost rate of 40 percent instead of 10.9 percent. For FY 2006, COSVI used an
indirect cost rate of 11.93 percent rather than 11.13 percent.




                                                          5

Subcontract Costs

Pursuant to section 3l.204 of the FAR, subcontract costs are allowable to the extent they are
reasonable, allocable, and detennined to be allowable.

COSVI overstated subcontract costs totaling $6,807 in its FY 2007 costs proposal. Specifically,
COSVI claimed $5,851 in excess of subcontract tenns and reported $956 of subcontract costs
allocable to FY 2008.

UNDERSTATED SALARY COSTS

COSVI understated costs related to salaries totaling $2,759 in its FY 2005 cost proposal.

Pursuant to section 3l.201-2(d) of the FAR (48 CFR § 3l.201-2(d)), a contractor is responsible
for accounting for costs appropriately and for maintaining records, including supporting
documentation, adequate to demonstrate that costs claimed have been incurred, are allocable to
the contract, and comply with applicable cost principles in this subpart and agency supplements.

During our reconciliation of costs reported on COS VI' s cost report to accounting records
maintained by the fiscal intennediary, we identified $2,759 in salary costs that COSVI did not
report in its cost proposal.

RECOMMENDATION

We recommend that COSVI decrease its costs proposals by $61,533 ($12,291 for FY 2005,
$34,868 for FY 2006, and $14,374 for FY 2007) to reflect the unallowable administrative costs.

COOPERATIVA DE SEGUROS DE VIDA DE PUERTO RICO COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, COS VI partially agreed with our recommendation to
decrease its cost proposals. COSVI indicated that it agreed to adjust its cost proposals for
unsupported subcontract and salary costs; unallocable executive compensation; overstated travel,
depreciation, indirect costs, and return on investment; and understated salary costs. However,
COSVI did not agree to adjust its cost proposals for unallocable entertaimnent costs and
overstated subcontract costs. COS VI's comments appear in their entirety as Appendix D.

After reviewing COS VI' s comments, we continue to recommend that COS VI decrease its cost
proposals by $61,533 to reflect the unallowable administrative costs.




                                                 6

APPENDIXES 

          APPENDIX A: COSTS REPORTED ON FINAL ADMINISTRATIVE COST 

                      PROPOSAL BY COST CLASSIFICATION 




                                Fiscal Year    Fiscal Year   Fiscal Year   Total Costs
            Cost Category
                                   2005           2006          2007        Claimed

Salaries/Wages                    $1,727,380    $1,707,675    $1,537,480     4,972,535
Fringe Benefits                     522,473        502,944       550,393     1,575,810
Facilities or Occupancy             215,346        222,028       225,720       663,094
Subcontractors                      399,434        361,136       264,453     1,025,023
Outside Professional Services       277,925        387,499       334,570       999,994
Telephone and Telegraph              97,338         99,310        87,862       284,510
Postage and Express                  30,707         10,907         7,306        48,920
Furniture and Equipment              71,993         94,788        87,034       253,815
Materials and Supplies               88,633         32,959        26,165       147,757
Travel                               75,042         55,308        29,482       159,832
Return on Investment                 27,206         22,670        19,919        69,795
Miscellaneous                       120,308        101,438        84,208       305,954
Credits                             (92,877)      (52,393)      (34,549)     (179,819)

Total Costs Reported on Final
                                 $ 3,560,908   $ 3,546,269   $ 3,220,043   $ 10,327,220
Administrative Cost Proposal

OIG Recommended Adjustments'        (12,291)      (34,868)      (14,374)       (61,533)

Total Adjusted Costs             $ 3,548,617   $ 3,5ll,401   $ 3,205,669   $ 10,265,687

• See Appendix B
                       APPENDIX B: OFFICE OF INSPECTOR GENERAL 

                          RECOMMENDED COSTS ADJUSTMENTS 


                                                  Fiscal       Fiscal       Fiscal
                                                                                         Total Part A
                Finding Category                  Year         Year         Year
                                                                                         Adjustments
                                                  2005         2006         2007
     Unsupported Subcontract Costs                         -            -   $12,000           $12,000
     Unsupported Salaries                                  -    $2,158        3,450              5,608
     Unallocable Entertainment Cost                 $8,402       7,908        2,995             19,305
     Unallocable Executive Compensation              5,173              -            -           5,173
     Overstated Travel Costs                         1,365              -            -           1,365
     Overstated Depreciation Costs                         -    21,757      (10,878)            10,879
     Overstated Indirect Cost Rate                     110       1,525               -           1,635
     Overstated Return on Investment                       -     1,520               -           1,520
     Overstated Subcontract Costs                          -            -     6,807              6,807
     Understated Salary Costs                      (2,759)              -            -         (2,759)
     Total OIG Recommended Adjustments             $12,291     $34,868      $14,374           $61,533

Note: Of the $61,533 in OIG Recommended Adjustments, $10,879 is related to depreciation costs to
be reported in COSVI's FY 2008 cost proposal.
                                                                                      Page 1 of3


                 APPENDIX C: COMPARISON OF ADMINISTRATIVE COSTS 

                       REPORTED TO BUDGET AUTHORIZATION 

                                 FISCAL YEAR 2005 


                                                                                        Variance
                                              Budget            Administrative
             Operation                                                                  Favorable
                                           Authorization        Costs Reported
                                                                                      (Unfavorable)
Program Management
Bills/Claims Payment                              $ 896,000             $ 895,993                     $7
Appeals/Reviews                                     167,100               180,689               (13,589)
Beneficiary Inquiries                               218,984               204,450                 14,534
PM Provider Communications                           69,394                56,609                 12,785
Productivity Investment                                    -                     -                     -
Reimbursement                                       251,000               222,457                28,543
Provider Enrollment                                 122,900                68,789                54,111
Provider Inquires                                   165,151               164,642                   509
Provider Outreach & Education                              -                     -                     -
Credits                                            (110,000)             (92,877)               (17,123)
        Subtotal                                   1,780,529            1,700,752                 79,777
Medicare IntegritI Program
Medical Review                                      $331,425             $342,883              $(11,458)
MSP- Prepayment                                       56,000               57,411                (1,411)
Benefits Integrity                                    32,000               32,625                  (625)
Local PET                                             99,300              100,037                  (737)
Provider Communications                              146,800              147,868                (1,068)
Audit                                              1,043,600            1,029,362                 14,238
MSP Post payment                                     151,200              149,970                  1,230
        Subtotal                                 $ 1,860,325          $ 1,860,156                  $ 169
Totals                                           $ 3,640,854          $ 3,560,908               $ 79,946

Note: All amounts were taken from Final Administrative Cost Proposal (Supplement No. 02) and
Notice of Budget Approval (Supplement No. 07)
                                                                                       Page 2 of3


                  APPENDIX C: COMPARISON OF ADMINISTRATIVE COSTS 

                        REPORTED TO BUDGET AUTHORIZATION 

                                  FISCAL YEAR 2006 


                                                                                        Variance
                                              Budget            Administrative
              Operation                                                                 Favorable
                                           Authorization        Costs Reported
                                                                                      (Unfavorable)
Pro::ram Mana::ement
Bills/Claims Payment                               $ 891,400            $ 849,810                $ 41,590
Appeals/Reviews                                      183,500              177,646                   5,854
Beneficiary Inquiries                                174,084              129,524                  44,560
PM Provider Communications                            42,400               41,120                   1,280
Productivity Investment                                    -                     -                      -
Reimbursement                                       221,800               213,889                   7,911
Provider Enrollment                                  45,600                57,964                (12,364)
Provider Inquires                                   176,151               209,531                (33,380)
Provider Outreach & Education                              -                     -                      -
Credits                                            (107,200)             (52,393)                (54,807)
        Subtotal                                   1,627,735            1,627,091                     644
Medicare Inte!!rity Pro!!ram
Medical Review                                     $ 341,525            $ 353,258            $ (11,733)
MSP- Prepayment                                       51,000               51,507                 (507)
Benefits Integrity                                    32,000               31,293                   707
Local PET                                            100,000               95,091                 4,909
Provider Communications                              149,800              157,277               (7,477)
Audit                                              1,114,600            1,096,600                18,000
MSP Post payment                                     134,000              134,075                  (75)
        Subtotal                                 $ 1,922,925          $ 1,919,101               $ 3,824
Totals                                           $ 3,550,660          $3,546,192 *              $ 4,468

  Note: All amounts were taken from Final Administrative Cost Proposal (Supplement No. 03) and
  Notice of Budget Approval (Supplement No. 17)
                                                                                    Page 3 of3


               APPENDIX C: COMPARISON OF ADMINISTRATIVE COSTS 

                     REPORTED TO BUDGET AUTHORIZATION 

                               FISCAL YEAR 2007 


            Operation                      Budget           Administrative         Variance
                                        Authorization       Costs Reported         Favorable
                                                                                 (Unfavorable)
Pro::ram Mana::ement
Bills/Claims Payment                            $ 736,300          $ 709,377              $ 26,923
Appeals/Reviews                                   142,000            171,748              (29,748)
Beneficiary Inquiries                              17,600             22,048               (4,448)
PM Provider Communications                              -                  -                     -
Productivity Investment                            11,100             11,959                 (859)
Reimbursement                                     210,500            199,807                10,693
Provider Enrollment                                39,000             43,238               (4,238)
Provider Inquires                                 193,300            194,865               (1,565)
Provider Outreach & Education                      69,600             60,568                 9,032
Credits                                          (40,000)           (34,549)               (5,451)
        Subtotal                                1,379,400          1,379,061                   339
Medicare Inte::rit:\: Pro::ram
Medical Review                                  $ 401,000          $ 412,050            $ (11,050)
MSP- Prepayment                                    48,100             49,881               (1,781)
Benefits Integrity                                 30,000             31,387               (1,387)
Local PET                                               -                  -                     -
Provider Communications                                 -                  -                     -
Audit                                           1,114,600          1,093,789                20,811
MSP Post payment                                    9,300              9,545                 (245)
MIP Provider Outreach & Education                 175,000            177,932               (2,932)
        Subtotal                                1,778,000          1,774,584                 3,416
Electronic Data Center Transition                  75,200             66,398                 8,802
Totals                                        $ 3,232,600        $ 3,220,043              $ 12,557

 Note: All amounts were taken from Final Administrative Cost Proposal (Supplement No. 00) and
 Notice of Budget Approval (Supplement No. 09)
                                                                                                 Page 1 of2


        APPENDIX D: COOPERATIVA DE SEGUROS DE VIDA 

                 DE PUERTO RICO COMMENTS 





June 9, 2010



Report Number: A-OZ-QS-OI026



James P. Eder!
ReBion~1   Inspector General
for Audit Services - Region II
Jacob Javits Federal Building
26 Federal Plaza -Room 3900
New York, NY 10278

Dear Mr. Edert:

We received the draft report from the HHS DIG for the Audit of Cooperativ3 de Seguros de
Vida de Puerto Rico Final Administrat ive Cost Proposal for fiscal years 2005 through 2007.
We have reviewed the adjustments recommended in the report totalling $61,533.00 and
our comments are the following :

   1. 	 Subcontracts and Salaries - $17,608.00. COSVI agree s with the adjustment.

    2. 	 Entertainment Cost -$19,305.00. The auditors have disallowed cost rel ated to
         company Christma s celebration and food and beverages after compa ny Annual
         meetings pursuant to section 31.205-14 of the FAR (entertainment). We will request
         CMS evaluation of the amounts claimed 5ince most of the cost were incurred
         pursuant to section 31.205-13 -Employee Morale and 31.205- 28- cost of
         Shareholders Meetings.

    3. 	 Executive Compensation - $5,173.00. COSVI agrees with the adjustment.

   4. 	 Travel $1.365 COSVI agrees with the adjustment.

   5. 	 Depreciation $10, 879.00. COSVI agrees with the adj ustment.

    6. 	 Indirect Cost Rate-$1,635.oo. COSVI agrees with the adjustment.

    7. 	 Return on Investment- $1.520.00. COSVI agrees with the adjustm ent.

   8. 	 Subcontract cos t -$6,807.00. Part of thiS adjustment pertains to cos t claimed by our
        systems Subcontractor who submits its invoices to COSVI according to CAS
        requirements. We will request CMS evaluation of the cost claimed under this
        methodology.

                                               Ju'".
                             ..0 sox 363413. Safl   PU~ftO Rice 00936-3-428 

                         Phonl! Num~: 787·151-5656, E>t. 6702 F,,,,
                                                                  787-281-6317 

                                                                               Page 2 of2




James P. Eden
June9, 2010
Page 2




   9. Understated salaries - ($2,759.00). COSVI ag rees with the adjustment.


We appreciate the opportunity to comment on the report submitted.


Sincerely,
/Signature/
Carlos l. Gonzalez, CPA, CMA
Chief Financial Officer



c: Ricardo A. Ri vera, President
   Ramon Serrano, DIG Senior Auditor
   Alba Cosme, VP M edicare
